         Office of Inspector General




September 26, 2006

LYNN MALCOLM
VICE PRESIDENT, FINANCE, CONTROLLER

DEBORAH GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT:      Transmittal of Report – Independent Report on Withholdings and
              Contributions for Health Benefits, Life Insurance, Retirement, and
              Employee Headcount Data (Report Number FT-AR-06-017)

Attached is a copy of the subject report provided to the U.S. Office of Personnel
Management (OPM) Office of Inspector General (OIG) (Project Number
06BD026FT000). The report is provided for information only, and requires no
management action.

At the request of the OPM OIG, we performed agreed-upon procedures in accordance
with generally accepted government auditing standards and with the attestation
standards established by the American Institute of Certified Public Accountants. The
procedures were performed solely to assist the OPM in verifying employee withholdings
and employer contributions reported on the Report of Withholdings and Contributions
for Health Benefits, Life Insurance, and Retirement for selected pay periods. We also
verified information presented in the “Supplemental Semiannual Headcount Report” as
of March 3, 2006.

If you have any questions, please contact John Cihota, Deputy Assistant Inspector
General for Audit (Financial Operations), or Lorie Siewert, Director, Financial
Statements, at (703) 248-2300.
 E-Signed by Gordon Milbourn
ERIFY authenticity with ApproveI



Gordon C. Milbourn III
Assistant Inspector General
 for Audit

Attachments
cc: H. Glen Walker
    Vincent H. DeVito, Jr.
    Jon T. Stratton
    Steven R. Phelps
Office of Inspector General




                        September 26, 2006

                        HONORABLE PATRICK E. McFARLAND
                        INSPECTOR GENERAL
                        UNITED STATES OFFICE OF PERSONNEL
                         MANAGEMENT

                        SUBJECT:     Independent Report on Withholdings and
                                     Contributions for Health Benefits, Life
                                     Insurance, Retirement, and Employee
                                     Headcount Data
                                     (Report Number FT-AR-06-017)

                        We have performed the procedures described in the
                        attachment, which were agreed upon by the Inspector
                        General and Chief Financial Officer of the U.S. Office of
                        Personnel Management (OPM). The procedures were
                        performed solely to assist the OPM in verifying employee
                        withholdings and employer contributions reported on the
                        Report of Withholdings and Contributions for Health
                        Benefits, Life Insurance, and Retirement for the payroll
                        periods ended October 14, 2005; January 6, 2006; and
                        March 3, 2006; and the Supplemental Semiannual
                        Headcount Report as of March 3, 2006.

                        This engagement to apply agreed-upon procedures was
                        performed in accordance with generally accepted
                        government auditing standards and with the attestation
                        standards established by the American Institute of Certified
                        Public Accountants. The sufficiency of the procedures is
                        solely the responsibility of the Inspector General and Chief
                        Financial Officer of the OPM. Consequently, we make no
                        representation regarding the sufficiency of the procedures
                        described in the attachment, either for the purpose for which
                        this report has been requested, or for any other purpose.
Independent Report on Withholdings and Contributions for Health Benefits,                                      FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data




Background                            The U.S. Postal Service Information Technology and
                                      Accounting Service Center in Eagan, Minnesota, is
                                      responsible for the calculation, disbursement, and
                                      reporting of employee withholdings and Postal Service
                                      contributions for health benefits, life insurance, and
                                      retirement. The Postal Service employed over 800,800
                                      personnel (approximately 681,600 with benefit entitlements)
                                      as of March 3, 2006. The Postal Service withheld over
                                      $77 million and contributed about $346 million towards
                                      benefits during each pay period reviewed. The Postal
                                      Service transmitted these funds to the OPM via the
                                      Retirement and Insurance Transfer System and prepares a
                                      “Report of Withholdings and Contributions for Health
                                      Benefits, Life Insurance, and Retirement” each pay period
                                      detailing the amounts associated with each benefit
                                      category. Additionally, the Postal Service submitted a
                                      “Supplemental Semiannual Headcount Report” to the OPM
                                      detailing the number of employees associated with each
                                      specific benefits category.

Results in Brief                      Generally, we were able to verify the employee
                                      withholdings, employer contributions, and enrollment
                                      information for health benefits, life insurance,1 and
                                      retirement. However, we identified two reportable issues
                                      based on the agreed-upon procedures provided by the
                                      OPM:

                                      •     We found discrepancies between payroll records and the
                                            Standard Form (SF) 2817, Life Insurance Election, for
                                            three employees:

                                          Employee       Per Payroll Records                     Per SF 2817
                                                      Basic
                                                      Standard $10,000
                                             A                                           Form not on File
                                                      Additional / 2 Times Basic Pay
                                                      Family / 3 Multiples
                                                      Basic                              Basic
                                                      Standard $10,000                   Standard $10,000
                                             B
                                                      Additional / 5 Times Basic Pay     Additional / 5 Times Basic Pay
                                                      Family / 3 Multiples
                                                      Basic                              Basic
                                             C        Standard $10,000                   Standard $10,000
                                                      Family / 5 Multiples               Family / 1 Multiple


1
    We obtained 45 official personnel files to verify the election or non-election of health benefits and life insurance.




                                                               2
Independent Report on Withholdings and Contributions for Health Benefits,                              FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


                                      We verified that correct withholdings and contributions
                                      were paid according to payroll records. The SF 2817 is
                                      the original source document used to generate
                                      withholding and contributions from payroll records.
                                      Additionally, the OPM requires that the SF 2817 be filed
                                      and kept as a permanent record. The Postal Service
                                      was notified of the discrepancies and stated it is currently
                                      researching them.

                                  •    Aggregate base salaries for the Civil Service Retirement
                                       Offset employees on the Supplemental Semiannual
                                       Headcount Report do not accurately reflect the actual
                                       salaries paid for the reporting period. The reported
                                       salaries for regular and special contributors were
                                       $20.5 million and $56,612, respectively. However, we
                                       verified salaries of $15.6 million and $48,696. This
                                       occurred because the Postal Service calculated the
                                       salaries by dividing the dollar amount of the employee
                                       contributions paid into the retirement fund by the Offset
                                       retirement rate instead of reporting actual salaries
                                       subject to a retirement deduction. Paid and reported
                                       dollar amounts include prior period payroll adjustments.
                                       Additionally, the Civil Service Retirement Offset category
                                       requires employees to apply different rates to pretax
                                       benefits and gross salary less pretax benefits.2 The
                                       Postal Service stated the report format has not been
                                       updated since 1996 and does not clearly provide
                                       instructions or directions for pretax contributions. This
                                       discrepancy was reported in 2005 and remains
                                       outstanding.

                                  We were not engaged to and did not perform an audit, the
                                  objective of which would have been the expression of an
                                  opinion on the withholdings and contributions for health
                                  benefits, life insurance, and retirement, and the headcount
                                  report of the Postal Service. Accordingly, we do not express
                                  such an opinion. Had we performed additional procedures,
                                  other matters might have come to our attention that would
                                  have been reported to you.

                                  This report is intended solely for the use of the Inspector
                                  General and Chief Financial Officer of the OPM and should
                                  not be used by those who have not agreed to the
2
  Employees must pay the full Civil Service Retirement rate on pretax benefits and the Offset rate on gross salary
less pretax benefits.




                                                          3
Independent Report on Withholdings and Contributions for Health Benefits,          FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


                              procedures and taken responsibility for the sufficiency of the
                              procedures for their purposes.

                              If you have any questions or need additional information,
                              please contact John Cihota, Deputy Assistant Inspector
                              General for Audit (Financial Operations), or Lorie Siewert,
                              Director, Financial Statements, at (703) 248-2300.
                                E-Signed by Gordon Milbourn
                               ERIFY authenticity with ApproveI



                              Gordon C. Milbourn III
                              Assistant Inspector General
                               for Audit

                              Attachment

                              cc: Clarence C. Crawford




                                                    4
Independent Report on Withholdings and Contributions for Health Benefits,                         FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data




                                             APPENDIX I-1

                               AGREED-UPON PROCEDURES

       RETIREMENT, HEALTH BENEFITS, AND LIFE INSURANCE
       WITHHOLDINGS/CONTRIBUTIONS AND SUPPLEMENTAL
    SEMIANNUAL HEADCOUNT REPORT SUBMITTED TO THE OFFICE
                 OF PERSONNEL MANAGEMENT3

OBJECTIVE

Assist the Office of Personnel Management (OPM) in assessing the reasonableness of
Retirement, Health Benefits, and Life Insurance withholdings and contributions as well
as enrollment information submitted via the Semiannual Headcount Report.

BACKGROUND

The Agreed-Upon Procedures (AUPs) relating to the submission to OPM of
withholdings/contributions for Retirement, Health Benefits, and Life Insurance relate to
the use of the Retirement and Insurance Transfer System (RITS). RITS is the
authorized method of submission of withholding and contribution information to OPM.
Agency payroll offices (APOs) that are technically unable to transmit benefit information
to OPM via RITS may continue to submit withholdings and contributions via the hard
copy SF 2812 (and SF 2812-A), "Report of Withholdings and Contributions for Health
Benefits, Life Insurance and Retirement to OPM." The AUPs to be applied to those
APOs submitting withholdings and contributions to OPM via the hard copy SF 2812
forms are similar to those for RITS.

PROCEDURES

Obtain the APO's March Semiannual Headcount Report submitted to OPM and a
summary of RITS submissions for the current fiscal year. For Retirement, Health
Benefit, and Life Insurance select any three RITS submissions for the current fiscal
year, one of which coincides with the March Semiannual Headcount Report. Obtain
payroll information for the periods covered by the RITS submissions selected.

Note: Hereinafter, the term payroll information refers to all payroll information, whether it
is a payroll register, payroll data files, or other payroll support data.


3
 Office of Management and Budget Bulletin 06-03, Audit Requirements for Federal Financial Statements, dated
August 23, 2006.




                                                       5
Independent Report on Withholdings and Contributions for Health Benefits,         FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


1.      Compare RITS submission data with payroll information by performing the
        following procedures:

        1.a.     Recalculate the mathematical accuracy of the payroll information. For
                 cross-servicing agencies, if the internal controls are the same for all
                 agencies serviced, it is only necessary to perform this procedure for one
                 agency.

        1.b.     Recalculate the mathematical accuracy of each RITS submission for the
                 payroll information selected in step 1.a.

        1.c.     Compare the employee withholding information shown on the payroll
                 information obtained in step 1.a. for Retirement, Health Benefits, and Life
                 Insurance (as adjusted for reconciling items) to the related amounts
                 shown on the RITS submission for the corresponding period.

        Report any differences for Retirement, Health Benefits, and Life Insurance that
        are over 1 percent of the total reported for each of the three categories. Report
        and obtain management’s explanation for those differences above the 1%
        threshold.

2.a.    Randomly select a total of 25 individuals who were on the payroll system for all
        three of the RITS submissions selected and meet all the following criteria:

        •      covered by the Civil Service Retirement System (CSRS) or the Federal
               Employees Retirement System (FERS);
        •      enrolled in the Federal Employees Health Benefits Program;
        •      covered by Basic Life Insurance; and
        •      covered by at least one Federal Employees Group Life Insurance (FEGLI)
               optional coverage (Option A, B, or C).

2.b.    Obtain the following documents, either in electronic or hard copy format, from the
        Official Personnel File (OPF) for each individual selected in step 2.a. Hard
        copies can be originals or certified copies.

        •   all Notifications of Personnel Actions (SF-50) covering the pay periods in the
            RITS submissions chosen;
        •   the Health Benefit Registration Form (SF-2809) covering the pay periods in
            the RITS submissions chosen or, if applicable, request that the agency
            personnel office obtain a report from the agency’s automated system that
            allows participants to change benefits, (e.g. Employee Express), for any
            Health Benefits transactions in that system for the individuals selected in step
            2.a. Compare date of transaction with date on the certified copy of the SF-
            2809 or the agency’s automated system report covers the pay periods in the
            RITS submissions chosen (note: a new SF-2809 is only needed if an



                                                    6
Independent Report on Withholdings and Contributions for Health Benefits,       FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


            employee is changing health benefit plans, therefore the form could be many
            years old); and
        •   the Life Insurance Election Form (SF-2817) covering the pay periods in the
            RITS submission chosen (note: a new SF-2817 is only needed if an employee
            is changing life insurance coverage, therefore the form could be many years
            old).

2.c.    Compare the base salary used for payroll purposes and upon which withholdings
        and contributions generally are based with the base salary reflected on the
        employees' SF-50. Report any differences.

2.d.    For Retirement, compare the plan code on the employees’ SF-50 to the plan
        code used in the payroll system. Report any differences and obtain
        management’s explanation of the differences.

2.e.    Calculate the retirement amount to be withheld and contributed for the plan code
        from the employees’ SF-50, based upon the official withholding and contribution
        rates required by law. Compare to actual amounts withheld and contributed.
        Report any differences and obtain management’s explanation of the differences.

2.f.    For Health Benefits, compare the employee withholdings and agency
        contributions with the official subscription rates issued by OPM for the plan and
        option elected by the employees, as documented by a Health Benefits
        Registration Form (SF-2809) in the employees' OPF or automated system that
        allows the participant to change benefits (e.g. Employee Express). Report any
        differences and obtain management’s explanation of the differences.

2.g.    For Life Insurance, confirm that Basic Life Insurance was elected by the
        employees, as documented by a Life Insurance Election Form (SF-2817), in
        his/her OPF. Report any differences and obtain management’s explanation of
        the differences.

2.h.    Calculate the withholding and contribution amounts for basic life insurance using
        the following:

        •   For employee withholdings: Round the employee's annual base salary to the
            nearest thousand dollars and add $2,000. Divide this total by 1,000 and
            multiply by the rate required by law.

        •   For agency contributions: Divide the employee withholdings calculated above
            by two.

        Compare to actual amounts withheld and contributed. Report any differences
        and obtain management’s explanation of the differences.




                                                    7
Independent Report on Withholdings and Contributions for Health Benefits,       FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


2.i.    Also, for Life Insurance, compare optional coverage elected as documented by
        an SF-2817 in the employee’s OPF with optional coverage documented in the
        payroll system. Report any differences and obtain management’s explanation of
        the differences.

2.j.    Calculate the withholding amounts for optional life insurance using the following:

        •   For Option A: Determine the employee’s age group using the age groups
            provided for Option A in the FEGLI Program Booklet. The withholding
            amount is the rate listed in the FEGLI Program Booklet for that age group.
            Compare to amount withheld. Report any differences and obtain
            management’s explanation of the differences.

        •   For Option B: Inspect the SF-2817 to determine the number of multiples
            chosen for Option B. Determine the employee’s age group using the age
            groups provided for Option B in the FEGLI Program Booklet. Round the
            employee’s annual rate of basic pay up to the next 1000, divide by 1000, and
            multiply by the rate for the age group. Multiply this amount by the number of
            multiples chosen. Compare to amount withheld. Report any differences and
            obtain management’s explanation of the differences.

        •   For Option C: Inspect the SF-2817 to determine the number of multiples
            chosen for Option C. Determine the employee’s age group using the age
            groups provided for Option C in the FEGLI Program Booklet. Multiply the rate
            for the age group by the number of multiples chosen. Compare to amount
            withheld. Report any differences and obtain management’s explanation of
            the differences.

3.      Randomly select a total of 10 employees, who have no Health Benefits
        withholdings, from the payroll information corresponding to the three RITS
        submissions selected for testing above.

        Request SF-2809s covering the pay periods in the RITS submissions chosen,
        either in electronic or hard copy format, from the selected employees’ OPFs or, if
        applicable, request that the agency personnel office obtain a report from the
        agency’s automated system that allows participants to change benefits, (e.g.
        Employee Express), for any Health Benefit transactions in that system for the
        individuals selected. Hard copies can be originals or certified copies. Inspect the
        documentation to determine that health benefit coverage was not elected. This
        can be determined in the following ways:

        •   absence of an SF-2809 in the OPF and no election of coverage made through
            the agency’s automated system that allows participants to change benefits
            (e.g. Employee Express); or




                                                    8
Independent Report on Withholdings and Contributions for Health Benefits,      FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data


        •   an SF-2809 in the OPF with Section E checked (indicating cancellation of
            coverage) and no later election of coverage through the agency’s automated
            system that allows participants to change benefits (e.g. Employee Express);
            or
        •   cancellation of coverage through the agency’s automated system that allows
            participants to change benefits (e.g. Employee Express) and no later election
            of coverage with an SF-2809.

        Report any exceptions.

4.      Randomly select a total of 10 employees who have no Life Insurance
        withholdings from the payroll information corresponding to the three RITS
        submissions selected for testing above. Request the SF-2817s covering the pay
        periods in the RITS submissions chosen, either in electronic or hard copy format,
        from the selected employees’ OPFs. Hard copies can be originals or certified
        copies. Inspect the SF-2817 to determine that the employee waived or cancelled
        Basic Life Insurance coverage. Report any exceptions.

5.      Calculate the headcount reflected on the Semiannual Headcount Report selected
        for testing above, as follows.

        5.a.    Obtain existing payroll information supporting the selected Supplemental
                Semiannual Headcount report. If existing payroll data is not available,
                have a payroll system query performed that summarized detailed payroll
                data supporting the Supplemental Semiannual Headcount Report, as
                follows:

                •   Benefit Category (see Semiannual Headcount Report).
                •   Dollar Amount of withholdings and contributions.
                •   Number Enrolled (deductions made/no deductions).
                •   Central Personnel Data File Code.
                •   Aggregate Base Salary.

        5.b.    Recalculate the Headcount reflected on the Semiannual Headcount
                Report. If an electronic file is not available, a suggested method of
                recalculating the Headcount is as follows: (1) estimate the number of
                employees per payroll register page by counting the employees listed on
                several pages, (2) count the number of pages in the payroll register, and
                (3) multiply the number of employees per page by the number of pages, or
                count (using a computer audit routine) the number of employees on the
                payroll data file for the period.

        5.c.    Compare the results of payroll information from step 5.a. with the
                calculated headcount from step 5.b. to the information shown on the
                Semiannual Headcount Report.



                                                    9
Independent Report on Withholdings and Contributions for Health Benefits,        FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data



        5.d.    Report any differences and obtain management’s explanation of the
                differences (i.e., gross rather than net) greater than 2 percent between the
                headcount reporting on the agency's Semiannual Headcount Report and
                payroll information from step 5.a. and the calculated Headcount from step
                5.b.

6.      Calculate employer and employee contributions for Retirement, Health Benefits,
        and Life Insurance.

        6.a.    Calculate Retirement withholdings and contributions for the three pay
                periods selected, as follows:

                i. Multiply the CSRS and FERS payroll base by the withholding and
                   employer contribution rates required by law.

                ii. Compare the calculated totals with related amounts shown on the
                    RITS submissions. Report any variances and obtain management’s
                    explanation of the variances (i.e., gross rather than net) between the
                    calculated amounts and the amounts reported on the RITS
                    submissions greater than 5 percent of the amounts on the RITS
                    submission.

        6.b.    Calculate employee withholdings and employer contributions for Health
                Benefits for the three pay periods selected, as follows:

                i. Multiply the number of employees enrolled in each Health Benefits
                   plan and plan option by the employee withholdings and employer
                   contributions for the plan and option.

                ii. Sum the totals in step 6.b.i. and compare the result with the Health
                    Benefit withholding and contribution amounts shown on the RITS
                    submissions. Report any variances and obtain management’s
                    explanation of the variances (i.e., gross rather than net) between the
                    calculated amounts and the amounts reported on the RITS
                    submissions greater than 5 percent of the amounts on the RITS
                    submission.

        6.c.    Calculate the Basic Life Insurance employee withholdings and employer
                contributions for the three pay periods selected as follows:

                i. Have APO personnel perform a payroll system query to determine the
                   total number of employees with Basic Life Insurance Program
                   coverage and the aggregate annual basic pay for all employees with
                   Basic Life Insurance.




                                                   10
Independent Report on Withholdings and Contributions for Health Benefits,         FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data



                ii. For employee withholdings: Add the product of 2,000 times the
                    number of employees with Basic Life Insurance coverage to the
                    aggregate annual basic pay for all employees selected. This
                    represents the estimated total Basic Life Insurance coverage. Divide
                    this total by 1,000 and multiply by the rate required by law. The Life
                    Insurance rates can be found in the FEGLI Program Booklet on OPM’s
                    website.

               iii. Compare the result in step 6.c.ii. to the withholdings for Basic Life
                    Insurance coverage reported on the RITS submission. Report any
                    difference and obtain management’s explanation of the differences
                    (i.e., gross rather than net) between the estimate and the amount of
                    withholdings reported on the RITS submission greater than 5 percent
                    of the amounts on the RITS submission.

               iv. For agency contributions: Divide the results of step 6.c.ii. by two -- this
                   approximates agency contributions, which are one-half of employee
                   withholdings. Compare this result to the amount reported on the RITS
                   submission and report any differences and obtain management’s
                   explanation of the differences (i.e., gross rather than net) between the
                   estimate and the amount reported on the RITS submission greater
                   than 5 percent of the amounts on the RITS submission.

        6.d.    Calculate the Option A, Option B and Option C Life Insurance coverage
                withholdings for the three pay periods selected by using detail payroll
                reports used to reconcile the RITS reports in Step 1. In addition to the
                information used for step 1, the reports should include the employee's
                date of birth, annual rate of basic pay, and number of multiples selected
                for Option B and C. Note: While similar to step 2.j., the calculation here is
                for the entire amount reported on the RITS submissions for the three pay
                periods selected, as opposed to the sample of 25 employees in step 2.j.

                i. Multiply the number of employees in each age group by the
                   appropriate rate for Option A in accordance with the rates for age
                   groups provided in the FEGLI Program Booklet. Report any
                   differences and obtain management’s explanation of the differences
                   (i.e., gross rather than net) greater than 2 percent of the amounts on
                   the RITS submission.

                ii. Divide the reports for Option B and Option C insurance into the age
                    groups shown in the FEGLI Program Booklet. For Option B, round the
                    employee's annual rate of basic pay up to the next 1000, divide by
                    1000, multiply by the rate for the age group, multiply this by the
                    number of multiples:




                                                   11
Independent Report on Withholdings and Contributions for Health Benefits,          FT-AR-06-017
 Life Insurance, Retirement, and Employee Headcount Data



                    (Annual rate of basic pay (rounded up)/1000*rate*multiples).

                    For Option C, multiply the rate for the age group by the number of
                    multiples chosen for each employee. Report any differences and
                    obtain management’s explanation of the differences (i.e. gross rather
                    than net) greater than 2 percent of the amounts on the RITS
                    submission for Option B and/or Option C.




                                                   12
